CERTIFICATE OF SERVICE
No. TBD
Andrew Clarke et al.

Petitioners)
v.
Ray D. Goodson et al.
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Andrew
Clarke et al. Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Hugh Cannon Lawley
Clark May Price Lawley LLC
3070 Green Valley Road
P.O. Box 43408
Birmingham, AL 36243
205-267-6601
cannon@clarkmayprice.com
Counsel for Ray D. Goodson et al.

Lucas ^eDeus

November 6, 2019
SCP Tracking: Clarke-883 U.S. Hwy. 231 South-Cover White

